U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 14, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Clinton Lee Rumley v. United States of America,
S.Ct. No. 20-5733

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September
15, 2020, and placed on the docket on September 18, 2020. The government’s response is due
on October 19, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 18, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5733
RUMLEY, CLINTON LEE
USA

LISA M. LORISH
ASSISTANT FEDERAL PUBLIC DEFENDER
401 E. MARKET STREET
SUITE 106
CHARLOTTESVILLE, VA 22902
434-220-3388
LISA_LORISH@FD.ORG

